No. 19In the

Supreme Court of the United States
ERYON LUKE,
Petitioner,
v.
CPLACE FOREST PARK SNF, L.L.C.,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI
Victor J. Woods, Jr., Esq.
3834 New Prosperity Lane,
Suite A
Addis, Louisiana 70710
(225) 749-8696

James P. Manasseah, Esq.
Counsel of Record
Manasseh, Gill, Knipe
& Bélanger
8075 Jefferson Highway
Baton Rouge, Louisiana 70809
Addis, Louisiana 70710
(225) 383-9703
jimmy@manassehandgill.com

Counsel for Petitioner
290569

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The two questions presented are:
1. Whether the analysis applied by the Fifth
Circuit as articulated in the Pre-Young
decision of Brady vs. Office of the Sergeant
at Arms 820 F.3d 490 (D.C. Cir. 2008)
which recommends that (courts focus
on the pretext stage if the employer has
identified a nondiscriminatory reason for
the employment action) alters the new
framework for analyzing claims set forth
in Young thereby modifying its holding.
2. W het her who or what const itut es a
comparator in the prima facie stage to
determine discriminatory animus based
upon Congress’ language in 42 U.S.C. Section
2000e(K) as articulated in McDonnell
Douglas and further defined in Young when
referring to “***(as other persons not so
affected but similar in the ability or inability
to work.” More specifically can a pregnant
complainant be defined as a comparator to
herself to show that her employer’s reason
for an adverse employment action was
pretextual as pronounced in of Deneen v.
Northwest Airlines, Inc., 132 F.3d 431 (8th
Cir. 1987).
The United States Fifth Circuit Court of Appeals
affirmed the decision of the District Court for the Middle
District of Louisiana dismissing Plaintiff’s claim asserted

ii
under Title VII of the Civil Rights Act of 1964 (“Title
VII”) as amended by the Pregnancy Discrimination Act
of 1978 (“PDA”), 42 U.S.C. § 2000e(k). The District Court
granted Employer’s summary judgment holding Plaintiff;
hereinafter referred to as Luke, had not established
a prima facie case of discrimination under the new
standards enunciated in Young vs. United Parcel Services,
Inc. 135 S.Ct. 1338 (2015).
The Fifth Circuit, in an unpublished opinion on January
14, 2019, bypassed the issue regarding whether the District
Court had altered the Court’s prima facie standard
enunciated in Young, and affirmed summary judgment on
behalf of the employer on the premise that Luke had not
contradicted her employer’s nondiscriminatory reason for
terminating her employment , more specifically that she
was not able to perform an essential aspect of her job due
to a weight lifting restriction. Luke vs. CPlace Forest Park
SNF, No. 16-30992 (5th Cir. Jan. 14, 2019) (unpublished)
(“Slip op.”) at 3-4.
The Fifth Circuit’s decision contradicts the new
framework set forth regarding failure-to-accommodate
claims as set forth in Young. The Fifth Circuit altered
the new standard thereby changing the circumstantial
evidence framework thus contradicting the Court’s
holding in Young.
Further the four prong standard based upon the
analysis of McDonnell Douglas in determining whether
an accommodation shall be granted to pregnant women as
required under the Pregnancy Discrimination Act (“PDA”)
has caused a split between the Fifth and Eighth Circuits;
more specifically, as it pertains to and related to ***(as

iii
other persons not so affected but similar in the ability
or inability to work.” as codified under 42 U.S.C. Section
2000e(K). Issue has arisen regarding interpretation of the
type and use of evidence as it pertains to “other”. More
specifically what and who constitutes comparator evidence
pertaining to the identification of an employee “similar in
the ability or inability to work”. The Fifth Circuit’s opinion
contradicts the Eighth Circuit’s decision pronounced in
Deneen v. Northwest Airlines, Inc., 132 F.3d 431 (8th
Cir. 1987) that held a pregnant woman can be seen as a
comparator to herself.

iv
LIST OF PARTIES
Those named below are listed in the caption or listed as
attorneys or parties of the matter of Appeal to the United
States Fifth Circuit Court of Appeals in the captioned
matter.
Eryon Luke Appellant
Victor J. Woods, jr. of the
LAW OFFICE OF VICTOR J. WOODS, JR.
3834 New Prosperity Lane, Suite A Addis, LA 70710
Attorney for Appellant/Plaintiff
Elizabeth LeBlanc, Attorney
3834 New Prosperity Lane, Suite A Addis, LA 70710
Attorney for Appellant/Plaintiff
CPlace Forest Park SNF, L.L.C.
Defendant
Christine S. Goldberg The Kullman Firm
4605 Bluebonnet Blvd., Suite A
Baton Rouge, Louisiana 70809
Attorney for CPlace/Defendant
In addition, the parties stated above, those named herein
below appeared as amicus curiae in support of Petitioner
in the appeal to the United States Fifth Circuit Court
of Appeal bearing docket number 16-30992 titled Eryon
Luke v. CPlace Forest Park SNF, L.L.C. USDC No. 3:13CV-402

v
Lenora M. Lapidus
Gillian L. Thomas
Women’s Rights Project
American Civil Liberties Union Foundation
125 Broad Street New York, NY 10004 Case:
Bruce Hamilton
American Civil Liberties Union Foundation of Louisiana
P.O. Box 56157 New Orleans, LA 70156
Dina Bakst
Elizabeth Gedmark
A Better Balance 80 Maiden Lane, Suite 606
New York, NY 10038
Elizabeth Morris
Cynthia Thomas Calvert
Center for WorkLife Law
UC Hastings College of the Law
200 McAllister Street
San Francisco, CA 94102
9To5, National Association of Working Women
California Women’s Law Center
Equal Rights Advocates
Gender Justice
Independent Women’s Organization of New Orleans
Legal Aid at Work
Legal Momentum
Lift Louisiana
Louisiana Employment Lawyers Association
Louisiana National Organization for Women

vi
National Association for Women Lawyers
National Center for Law and Economic Justice
National Employment Lawyers Association
National Partnership for Women & Families
National Organization for Women
National Organization for Women of Mississippi
National Women’s Law Center
Texas Employment Lawyers Association
Texas State Chapter of the National Organization for
Women, Inc.
Women’s Law Center of Maryland, Inc.
Women’s Law Project

vii
RELEVANT CASES
Deneen v. Northwest Airlines, Inc., 132 F.3d 431 (8th
Cir. 1998)
Young v. United Parcel Service, Inc., 135 S. Ct. 1338
(2015)

viii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
RELEVANT CASES  . . . . . . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . x
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  xi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISION . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 7
I.

Review is warranted to resolve whether
the analysis applied by the Fifth Circuit
articulated in the Pre-Young decision
of Brady vs. Office of the Sergeant at
Arms 820 F.3d 490 (D.C. Cir. 2008) is
applicable in light of the more specified
framework for reviewing claims set forth
in Young thereby altering the holding
and standard set forth by the Court. . . . . . . . . . 10

ix
Table of Contents
Page
If the Fifth Circuit Had Used the
Young Analysis, It Would Have Found
a Triable Question of Pretext . . . . . . . . . . . 14
T h e D i s t r i c t C o u r t ’s O p i n i o n
Affirmed by the Fifth Circuit also
Conf licts with Young and Should
Have Been Reversed . . . . . . . . . . . . . . . . . . 16
II. Review is necessary to resolve conflict
between the Fifth Circuit and Eighth
Circuit regarding whether who or what
constitutes a comparator in the prima
facie stage to determine discriminatory
animus based upon Congress’ language in
42 U.S.C. Section 2000e(K) as articulated
in McDonnell Douglas and further defined
in Young when referring to “***(as other
persons not so affected but similar in
the ability or inability to work.” More
specifically can a pregnant complainant be
defined as a comparator to herself to show
that her employer’s reason for an adverse
employment action was pretextual as
pronounced in Deneen v. Northwest Airlines,
Inc., 132 F.3d 431 (8th Cir. 1987). . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

x
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT,
FILED JANUARY 14, 2019 . . . . . . . . . . . . . . . . . . . . 1a
A PPENDIX B — RULING A ND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE MIDDLE DISTRICT OF
LOUISIANA, DATED AUGUST 9, 2014 . . . . . . . . . 7a
APPENDIX C — RULING AND ORDER OF THE
UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF LOUISIANA,
FILED NOVEMBER 4, 2014  . . . . . . . . . . . . . . . . . 18a
APPENDIX D — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT,
DATED JANUARY 14, 2016 . . . . . . . . . . . . . . . . . . 36a

xi
TABLE OF CITED AUTHORITIES
Page
CASES:
Brady v. Office of Sergeant at Arms,
520 F.3d 490 (D.C. Cir. 2008) . . . . . . . . . . . . . . .  7, 8, 10
Calabro v. Westchester BMW, Inc.,
398 F. Supp. 2d 281 (S.D.N.Y. 2005) . . . . . . . . . . . . . 21
Deneen v. Northwest Airlines, Inc.,
132 F.3d 431 (8th Cir. 1987) . . . . . . . . . . . . . . . . . 18, 19
Hunter v. Mobis Ala., LLC,
559 F. Supp. 2d 1247 (M.D. Ala. 2008) . . . . . . . . . . . 21
Legg v. Ulster County,
820 F.3d 67 (2d Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . 16
Luke v. CPlace Forest Park SNF,
No. 16-30992 (5th Cir. Jan. 14, 2019) . . . . . . . . .  1, 7, 19
Martin v. Canon Bus. Solutions, Inc.,
2013 U.S. Dist. LEXIS 129008
(D. Colo. 2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Price Waterhouse v. Hopkins,
490 U.S. 228 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

xii
Cited Authorities
Page
Rios v. Rossotti,
252 F.3d 375 (5th Cir. 20010) . . . . . . . . . . . . . . . . . . . . 9
Urbano v. Continental Airlines, Inc.,
138 F.3d 204 (5th Cir. 1998) . . . . . . . . . . . . . . . . . . . . 11
Wilson v. O’Grady-Peyton Int’l (USA), Inc.,
2008 U.S. Dist. LEXIS 24394 (S.D. Ga. 2008)  . . . . 21
Young v. United Parcel Service, Inc.,
135 S. Ct. 1338 (2015) . . . . . . . . . . . . . . . . . . . . . passim
STATUTES AND OTHER AUTHORITIES:
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 2000e(k) . . . . . . . . . . . . . . . . . . . . . . . 1, 2, 5, 10
1 LE X K . L A R S ON, EM PLOY M EN T
DISCRIMINATION § 8.04 (2D ED. 2007) . . . . . . . . 8
H.R. Rep. No. 95-948 (1978) . . . . . . . . . . . . . . . . . . . . . . 11
La. R.S. § 23:342 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
S. Rep. No. 95-331 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . 11

1
OPINIONS BELOW
The Initial appeal of this matter to the United States
Fifth Circuit Court of Appeal bears docket number
16-30992. The Fifth Circuit vacated the district court’s
ruling with respect to the PDA claim and remanded
the case for consideration in light of Young v. United
Parcel Service, Inc., 135 S. Ct. 1338 (2015).. On remand,
the district court again granted summary judgment to
the employer., Luke appealed the decision to the Fifth
Circuit. Oral argument was held on August 2, 2017. In
an unpublished opinion the decision of the United States
District Court for the Middle District of Louisiana was
upheld by the United State Court of Appeals for the Fifth
Circuit cited as Luke v. CPlace Forest Park SNF, No. 1630992 (5th Cir. Jan. 14, 2019) (unpublished) (“Slip op.”) at
3-4. An enbanc review was requested on January 28, 2019
and denied on May 16, 2019.
JURISDICTION
The Court’s jurisdiction is involved under 28 U.S.C.
Section 1254(1). The Fifth Circuit opinion was rendered
on January 14, 2019 (See Appendix A). The Petition for
En Banc Rehearing was requested on January 28, 2019
and denied on May 16, 2019. (See Appendix D).
RELEVANT STATUTORY PROVISION
The Pregnancy Discrimination Act (“PDA”), 42
U.S.C. Section 2000e(k).

2
STATEMENT OF THE CASE
A. Petitioner, Eryon Luke’s asserts that Defendant
CPlace Forest Park, SNF, LLC (CPlace) doing business
as Nottingham Regional Rehab Center violated the
Pregnancy Discrimination Act, 42 U.S.C. 2000e(K).
Plaintiff/Petitioner Eryon Luke (Luke) was employed
by CPlace Forest Park SNF, LLC, doing business as
Nottingham Regional Rehab Center (defendant or CPlace),
as a full-time certified nursing assistant (CNA) from
October 10, 2011 through May 24, 2012. She learned she
was pregnant with twins and soon thereafter, on December
3, 2011, provided her supervisor with a certificate from
her doctor stating that she could work with the restriction
that she does not lift heavy objects for two weeks. On
December 3 and 4, 2011, the supervisor allowed Luke to
perform duties that did not require heavy lifting. There
was no job description stating a lifting requirement, and
CNAs performed many duties that did not require lifting.
ROA. 44-2, p.10. All employees were required by the
CPlace’s written policies to get assistance lifting “heavy
loads” and were instructed to “[n]ever lift a resident
without assistance.” ROA. 44-3, §§ 8.2D, §8.3E. Prior to
becoming pregnant, Luke always received assistance with
lifting from other employees. ROA. 44-2, p.15. Mechanical
lifts and other assistive devices were also available. ROA.
60-2, p.39. CPlace had a policy of providing reasonable
accommodations to employees who had disabilities, ROA.
44-3, §3.2 (“It is the policy of the company to comply with
all relevant and applicable provision [sic] of the Americans
with Disabilities Act. …The Company shall strive to make
reasonable accommodations for employees when provided
proper notice, preferably in writing.”). In addition, CPlace
modified duties to accommodate some CNAs and had light

3
duty positions that it made available to CNAs. ROA. 45,
pp.23, 24, 27; ROA. 84, p.3; ROA. 86-5, p.20. CPlace also
had the ability to transfer CNAs to positions that did not
require lifting within the Nottingham facility or at six or
seven sister facilities. ROA. 44-3, p.10; ROA. 43-7, pp.5,
10; ROA. 60-5, p.8; ROA. 60-6, p.46. On December 5,
2011, after Luke had worked for two days with modified
duties that did not require heavy lifting, CPlace’s human
resources manager, Rachel Carcamo, informed Luke that
despite her medical release, and despite her supervisor’s
agreement that she could not continue working without
performing heavy lifting, she was being placed on forced
leave for two weeks because of her lifting restriction as
CPlace did not have any light duty “at that time.” ROA.
42-4, p.2.Donna Duplantis, the Regional Director of
Human Resources for Traditions Senior Management
(Traditions has a contract to manage CPlace), said
CPlace assumed that Luke had a “problem pregnancy.”
ROA. 44-2, p.6 (“A. Because she had such strict lifting
restrictions in the beginning of her pregnancy, we decided
to assume it was a problem pregnancy. We did not ask
her physical [sic] to verify that.”).Luke returned to work
on December 12, 2011, with another certificate from her
doctor clearing her to work without restrictions. ROA.
44-1, p.2. Almost six weeks later, on January 22, 2012,
Luke gave the CPlace another note from her doctor that
stated “no heavy lifting throughout pregnancy” and Luke
was again placed on involuntary leave because, she was
told, she could not work with a lifting restriction. ROA.
42-4, p.4. A doctor’s note provided four days later clarified
that the lifting restriction was only for objects heavier
than 30 pounds, and Luke could otherwise continue to
work. Id. CPlace nevertheless placed her on leave, despite
receiving a letter from Luke’s doctor stating that there

4
was no medical reason for her to be on leave and that she
could work normal hours, as long as she did not lift more
than 30 pounds. Id. As she was filling out paperwork
related to her leave, Luke asked Carcamo if there was
any other work she could do, but Carcamo said no. ROA.
60-6, pp.44-45. On February 16, 2012, Luke also wrote
a letter to CPlace, requesting that she be allowed to
return as she felt there was sufficient light duty available
for her and asking that her supervisors be allowed “to
make reasonable adjustments to the type of work I am
able to perform.” ROA. 42-4, p.33.CPlace’s refusal to
accommodate Luke with lifting assistance, modification of
duties, a designated light duty position, or a transfer was
a departure from its treatment of other CNAs. CNAs who
needed accommodation in the past had been allowed to
work light duty, ROA. 60-5, pp.10 & 11; ROA. 86-5, p. 20,
and, in addition to directing other CNAs – including Luke
herself when she was not pregnant – to have assistance
when lifting, CPlace provided modified duties to two CNAs
who had uncomplicated pregnancies. ROA. 86-2, pp.2, 4.
CNAs were also transferred to positions such as ward
clerk, medical records, and activities assistants. ROA.
60-6, p.50. Carcamo provided Luke with a letter stating
that her leave expired on May 23, 2012, and she would
be terminated effective May 24, 2012. ROA. 42-4, p.35.
CPlace stated that she was terminated because “there
was still no work available within Luke’s restrictions.”
ROA. 42-8, p.6. Luke gave birth to twins on June 21, 2012.
ROA. 1-2, p.3.
B. On May 15, 2013, Eryon Luke filed this action in
state court, alleging, inter alia, that her former employer
discriminated against her on the basis of her pregnancy
in violation of the Pregnancy Discrimination Act (PDA),

5
42 U.S.C. § 2000e-k, when it refused to accommodate her
lifting restriction and terminated her employment, and
that it violated the Louisiana Employment Discrimination
Law (LEDL), La. R.S. § 23:342 when it failed to allow her
to take leave to which she was entitled and to transfer her
to accommodate her pregnancy. ROA. 1-2. The Defendant,
CPlace Forest Park SNF, LLC, doing business as
Nottingham Regional Rehab Center, removed the action
to the United States District Court for the Middle District
of Louisiana on June 20, 2013. ROA. 1. On November 4,
2014, the district court granted summary judgment to the
CPlace on the PDA claim and one of the LEDL claims and
remanded the remaining LEDL claim to state court. ROA.
32. Luke appealed, and while her appeal was pending, the
United States Supreme Court issued a decision in Young
v. United Parcel Service, Inc., 135 S. Ct. 1338 (2015). This
Court vacated the district court’s ruling with respect to
the PDA claim and remanded the case for consideration in
light of Young. ROA. 37.On remand, additional discovery
was taken and both parties moved for summary judgment.
ROA. 42, 44. Luke argued that she had presented evidence
that she was pregnant, had sought accommodation, the
employer refused to accommodate her, and the employer
accommodated others who were similar in their ability
to work in satisfaction of the new prima facie case
established by Young for claims alleging failure to
accommodate a pregnant employee. ROA. 44. She also
argued that her evidence was sufficient to show that the
employer’s proffered reason for non-accommodation was
pretext for discrimination as required by Young. Luke
offered evidence that she could have performed her job
with lifting assistance that the employer made available
to all employees, including to Luke herself prior to her
pregnancy. Further, a reasonable factfinder could conclude

6
that the evidence showed that the employer impermissibly
assumed that Luke had a “problem pregnancy” and, based
on that assumption, denied her accommodations that were
provided both to other pregnant employees who did not
have complications and to nonpregnant employees. Id.
The employer argued in its motion that Luke had not
shown that others were accommodated, it did not provide
employees with light duty at the time that Luke requested
light duty, and no light duty positions were available.
ROA. 42. Id. Each motion was opposed by the other party,
presenting arguments similar to the arguments made in
their motions. ROA. 48, 60.After hearing oral argument
on March 29, 2016, allowing additional discovery, and
receiving supplemental memoranda from the parties,
ROA. 83, 84, on August 9, 2016, the district court granted
the defendant’s motion for summary judgment and denied
as moot Luke’s motion for summary judgment. ROA. 87.
C. On September 2, 2016, Luke timely filed this appeal
of the district court’s final judgment. ROA. 88. The initial
appeal of this matter to the United States Fifth Circuit
Court of Appeal bearing docket number 16-30992. While
pending appeal, a decision was rendered in Young v. United
Parcel Service, Inc., 135 S. Ct. 1338 (2015). The Fifth
Circuit vacated the district court’s ruling with respect to
the PDA claim and remanded the case for consideration in
light of Young. On remand, the district court again granted
summary judgment to the employer, holding that Luke had
not established a prima facie case of discrimination under
the new standards enunciated by Young and granting the
defendant’s motion for summary judgment. Luke appealed
the decision to the Fifth Circuit. Oral argument was held
on August 2, 2017. In an unpublished opinion of the United
State Court of Appeals for the Fifth Circuit cited as Luke

7
v. CPlace Forest Park SNF, No. 16-30992 (5th Cir. Jan. 14,
2019) (unpublished) (“Slip op.”) at 3-4, the Fifth Circuit did
not address the argument that the district court had altered
the Young prima facie case, but rather, assumed that Luke
had established a prima facie case and then affirmed
summary judgment for the employer on the ground that it
had a stated a nondiscriminatory reason for terminating
Luke’s employment, specifically, that she was not able to
perform an essential aspect of her job. An enbanc review
was requested on January 28, 2019 and denied on May 16,
2019.
REASONS FOR GRANTING THE PETITION
The Fifth Circuit’s opinion failed to follow Young’s new
analytic framework and failed to consider the central issue
of Young. In its decision, the Fifth Circuit cites Brady vs.
Office of Sergeant at Arms, 520 F.3d 490, 493-94 (D.C. Cir.
2008) which recommends “that courts focus on the pretext
stage if the employer has identified a nondiscriminatory
reason for the employment action.” Brady, supra. a
pre-Young decision, is contrary to the new framework
created by Young regarding failure-to-accommodate
claims. The appeal of the District Court’s decision by
Luke to the Fifth Circuit was due to the alteration of
the new prima facie case standard. The Fifth Circuit
did not address the alteration. The Young circumstantial
evidence framework required consideration of whether the
employer had articulated a “sufficiently strong” reason for
refusing Luke’s request to accommodate her temporary
lifting restriction, despite accommodating non-pregnant
employees. The District Court in its ruling that granted
CPlace’s Motion for Summary Judgment correctly opined:
“No pregnant woman should, in 2016, be fired for being

8
unable to lift more than 30 pounds.” (District Court’s
2016 ruling); however, as the Fifth Circuit also did, its
application and holding of the Court’s analytic framework
in Young was too narrowly construed.
Young fundamentally changed the way courts analyze
claims of refusal to accommodate pregnancy-related
limitations brought pursuant to this clause. It created,
in effect, a presumption that an employer should modify
the job duties of pregnant women if it modifies the job
duties of non-pregnant employees who are similar in their
ability or inability to work. This presumption is reflected
in the new framework announced in the decision for
analyzing refusal-to-accommodate claims brought using
circumstantial evidence. The Fifth Circuit in its opinion
did not follow the standard pronounced in Young, supra.
Secondly, Brady, supra., cited by the Fifth Circuit
recognized that comparator evidence is a viable way to
show pretext.
“Often the employee attempts to produce
evidence suggesting that the employer treated
other employees of a different race, color,
religion, sex, or national origin more favorably
in the same factual circumstances. See 1 LEX K.
LARSON, EMPLOYMEN DISCIMINATION
§ 8.04, AT 8-66 (2D ED. 2007) (“In most cases
the key to proving pretext is comparative
evidence.”) Brady vs. Office of Sergeant at
Arms, 520 F. 3d 490 (D.C. Cir. 2008)
The Fifth Circuit recognized “[ Whether the employer
engaged in disparate treatment is the question when
evaluating whether its nondiscriminatory explanation

9
should be discredited because it has not been consistently
applied. CF. Rios vs. Rossotti, 252 F. 3d 375, 381 (5th Cir.
20010 (citing Price Waterhouse vs. Hopkins, 490 U.S. 228,
277 (1989) (Ruling of the Fifth Circuit in Luke Decision)
However, the Fifth Circuit refused to consider whether
a pregnant woman could be a comparator to herself.
“Because Luke has not pointed to any other
CNAs who were accommodated when they had
a similar medical restriction on heavy lifting
there is not evidence that would allow a jury to
conclude that CPlace is insincere when it says
that such lifting is an essential part of the job.”
(Luke decision on appeal)
The Fifth Circuit in its ruling did not acknowledge
Luke’s evidence as to whether she could be a comparator
to herself. Evidence that Luke received lifting assistance
prior to her pregnancy was presented. Said evidence was
not considered in determining whether CPlace’s reason
for denying her work was pretextual. In its opinion, the
Fifth Circuit stated that no evidence was presented by
Plaintiff Luke regarding whether any other employee was
given help when lifting, and the Fifth Circuit refused to
acknowledge Plaintiff Luke’s evidence that she was given
lifting assistance prior to pregnancy.
In the Eighth Circuit case of Deneen vs. Northwest
Airlines, Deneen brought a disparate treatment case
against her employer for pregnancy discrimination.
Deneen, a customer service agent, received a weight
restriction during her pregnancy not to lift more than
seventy-five pounds. Her employer stated she could not

10
complete the job function of lifting bags onto a conveyor
and did not allow her to return to work during her
pregnancy.
The Eighth Circuit found that Deneen suffered
different treatment after her pregnancy than before and
that she was a comparable party to herself. .
When it rendered its decision in this case, the Fifth
Circuit had the benefit of, but disregarded the decision of
the Eighth Circuit that held a person could be a comparator
to herself. The Fifth Circuit’s opinion is conflict with the
Eight Circuit. The split among the two Circuits that have
addressed this issue requires resolution. The ramifications
of which circuit is correct will significantly affect the
rights of both employee and employer.
I.

Review is warranted to resolve whether the analysis
applied by the Fifth Circuit articulated in the PreYoung decision of Brady vs. Office of the Sergeant
at Arms 820 F.3d 490 (D.C. Cir. 2008) is applicable in
light of the more specified framework for reviewing
claims set forth in Young thereby altering the
holding and standard set forth by the Court.

The second clause of the Pregnancy Discrimination
Act (PDA) provides that pregnant employees shall be
treated the same as others who are not pregnant but are
“similar in their ability or inability to work.” 42 U.S.C. §
2000e(k). In granting certiorari in Young, the Supreme
Court expressly noted the “lower-court uncertainty about
interpretation of the [PDA]” as to this clause’s applicability
in the context of pregnancy accommodation. Young, 135
S. Ct. at 1348 (collecting cases). The Court cited a line of

11
decisions – including one from the Fifth Circuit, Urbano
v. Continental Airlines, Inc., 138 F. 3d 204, 206, 208 (5th
Cir. 1998) – that had approved employer policies extending
accommodations to certain categories of employees,
like those injured on the job, but not pregnant workers.
Young rejected those cases as improperly deferring to
employers’ own definitions of which employees are and
are not sufficiently “similar” to pregnant workers to
require equal treatment. Such deference, it concluded, was
fundamentally at odds with Congress’s intent in enacting
the PDA: to end the disparate treatment of pregnancy,
as compared to other conditions, that too often resulted
in women’s exit from the workforce. See, e.g., S. Rep.
No. 95-331, at 4 (1977) (“[T]he bill rejects the view that
employers may treat pregnancy and its incidents as sui
generis, without regard to its functional comparability
with other conditions.”); H.R. Rep. No. 95-948, at 4 (1978)
(“The bill would simply require that pregnant women be
treated the same as other employees on the basis of their
ability or inability to work.”).
To that end, Young fundamentally changed the
way courts analyze claims of refusal to accommodate
pregnancy-related limitations brought pursuant to
this clause. It created, in effect, a presumption that an
employer should modify the job duties of pregnant women
if it modifies the job duties of non-pregnant employees
who are similar in their ability or inability to work. This
presumption is reflected in the new framework announced
in the decision for analyzing refusal to accommodate
claims brought using circumstantial evidence.
Thus, a plaintiff alleging that the denial of an
accommodation constituted disparate treatment under
the Pregnancy Discrimination Act’s second clause may

12
make out a prima facie case by showing, as in McDonnell
Douglas, that she belongs to the protected class, that
she sought accommodation, that the employer did not
accommodate her, and that the employer did accommodate
others “similar in their ability or inability to work.”
T he employer m ay t hen seek t o ju st i f y it s
refusal to accommodate the plaintiff by relying on
“legitimate, nondiscriminatory” reasons for denying
her accommodation. But, consistent with the Act’s basic
objective, that reason normally cannot consist simply of
a claim that it is more expensive or less convenient to
add pregnant women to the category of those (“similar
in their ability or inability to work”) whom the employer
accommodates. . . .
If the employer offers an apparently “legitimate, nondiscriminatory” reason for its actions, the plaintiff may
in turn show that the employer’s proffered reasons are in
fact pretextual. We believe that the plaintiff may reach
a jury on this issue by providing sufficient evidence that
the employer’s policies impose a significant burden on
pregnant workers, and that the employer’s “legitimate,
nondiscriminatory” reasons are not sufficiently strong
to justify the burden, but rather – when considered along
with the burden imposed – give rise to an inference of
intentional discrimination.
Young, 135 S. Ct. at 1354 (citation omitted).
The Fifth Circuit, however, did not use Young’s new
analysis. After assuming Luke had presented a sufficient
prima facie case, the Fifth Circuit accepted the employer’s
stated reason for terminating Luke, namely, that she could

13
not “perform an essential aspect of her job,” which it found
to be the “ultimate question.” Slip op. at 3-4. But Young
directed that, instead, it should have considered whether
Luke’s employer had proffered a nondiscriminatory
reason for refusing to accommodate her when it did
accommodate non-pregnant employees who were similar
in their ability to work, and whether the proffered reason
was based on something other than the employer’s cost
or convenience. See Young, 135 S. Ct. at 1354 (describing
second step of analysis). The Fifth Circuit’s deviation from
Young is underscored by the fact that Peggy Young had a
lifting restriction, Young, 135 S. Ct. at 1344, and whether
she could perform an essential aspect of her job never
entered into the Supreme Court’s analysis.
The Fifth Circuit’s avoidance of the refusal-toaccommodate claim allowed the employer to avoid
explaining why it accommodated others but not the
pregnant employee – thereby exempting the employer
from meeting the second step of the Young framework and
preventing Luke from challenging its explanation in the
third step of that framework. It also allowed the employer
to benefit from a fact pattern that it had itself created: the
only reason Luke could not perform all of the functions of
her job is that the employer refused to accommodate her
with lifting assistance or job modification, even though it
provided both to other employees. The approach taken
in the Fifth Circuit conflicts with the spirit and letter
of Young in additional ways. It distorted Luke’s refusalto-accommodate claim into a termination claim, even
though Young made clear that the refusal to accommodate
when similarly-abled non-pregnant employees are
accommodated is a presumptive violation of the PDA. If
allowed to stand, this distortion would allow employers to

14
insulate themselves from PDA liability by first denying
pregnant employees the accommodations they need –
regardless of whether they accommodate non pregnant
employees who are similar in their ability or inability to
work – and then terminating them for not being capable of
performing all of their job duties. The conflict with Young
arises because the panel’s opinion deemed the employer’s
reason for termination to be the “ultimate question” (slip
op. at 4) – even though, according to Young, the ultimate
question is “why, when the employer accommodated so
many, could it not accommodate pregnant women as well?”
Id. at 1355.
If the Fifth Circuit Had Used the Young Analysis,
It Would Have Found a Triable Question of Pretext
The Fifth Circuit noted that the employer raised
two justifications for its refusal to accommodate Luke:
she was unable to perform an essential aspect of her
job, and the employer did not offer light duty positions
to its nurses. Slip op. at 4. Even if these justifications
were found to pass muster under the Young analysis – a
point Luke strongly disputes – Luke presented sufficient
evidence that these justifications were mere pretext for
pregnancy discrimination. “[A] plaintiff’s prima facie
case, combined with sufficient evidence to find that the
employer’s asserted justification is false, may permit the
trier of fact to conclude that the employer unlawfully
discriminated.” Reeves v. Sanderson Plumbing Prods.,
Inc., 530 U.S. 133, 148 (2002). Luke presented evidence
to the district court that the employer’s justifications
were false. First, Luke presented evidence to dispute the
employer’s claim that it required employees to be able to
lift a specific amount of weight. The evidence included

15
that the employer had no weight-lifting test for applicants
and did not test employees’ weightlifting ability. It had no
job description or policy stating that employees had to be
able to lift a minimum amount of weight. The employer
instructed employees not to try to lift heavy patients on
their own, and Luke herself had had assistance with lifting
prior to becoming pregnant.
Second, Luke presented evidence to the district court
that she sought accommodation that included not only light
duty but also other job modifications, and she had asked
broadly if the employer had any work that she could do. She
also presented evidence that the employer accommodated
others, including that it had a written policy of providing
accommodation to employees who had disabilities, the
employer had accommodated nonpregnant employees who
needed help with lifting, the employer had transferred
employees to available positions that accommodated their
medical restrictions, employees helped each other with
lifting, and a mechanical lifting device was available.
In the face of this evidence, CPlace’s justification that
it did not offer light duty to CNAs is both disputed and
insufficient. In addition to showing that CPlace’s proffered
justifications were false and that CPlace accommodated
others who were similar in their ability or inability to
work, Luke showed that CPlace’s refusal to accommodate
her placed a significant burden on her: it resulted in her
being forced out on unpaid leave and then terminated. In
addition, CPlace had several policies and practices that
resulted in nonpregnant employees being accommodated,
but Luke was the only pregnant employee with medical
restrictions who was not accommodated. See Young, 135 S.
Ct. at 1355 (Young presented evidence of several policies
of accommodation and argued that taken together, they

16
significantly burdened pregnant women; Fourth Circuit
did not consider the effect of the accommodation policies or
the strength of the employer’s justifications for each when
combined, so remand was appropriate); Legg v. Ulster
County, 820 F.3d 67, 76 (2d Cir. 2016) (where employer had
policies requiring accommodation of certain non-pregnant
employees but denied accommodation to the only pregnant
employee, it had “undoubtedly imposed a significant
burden on its pregnant employees”). This burden was not
outweighed by any burden that accommodation would have
placed on CPlace, and Luke therefore, should have been
permitted to try her case to a jury.
The District Court’s Opinion Affirmed by the Fifth
Circuit also Conflicts with Young and Should Have
Been Reversed
The Young Court held that a plaintiff establishes a
prima facie case by showing: (1) she was pregnant, (2)
she sought an accommodation, (3) the employer did not
accommodate her, and (4) the employer accommodated
others who were similar in their ability or inability to work.
The district court recited the new prima facie case, but
improperly interpreted the fourth element as requiring
Luke to present evidence that the accommodation she
sought was the same as accommodations the employer
had given to other employees. Id. This ruling construed
the fourth element unduly narrowly and created a more
stringent showing than called for by Young. Nothing in
the fourth element requires plaintiffs to demonstrate
that the accommodations sought by pregnant employees
are identical to accommodations provided to others. The
facts at issue in Young best illustrate this principle.
There, the Court was presented with an employer’s

17
policies that accommodated workers injured on the job,
workers entitled to accommodation under the Americans
with Disabilities Act, and workers who were unable to
fulfill their job duties as drivers because they had lost
their commercial driver’s licenses – including due to non
medical reasons like DUI convictions. Young, 135 S. Ct.
at 1347. The Court considered these employees as similar
in their ability or inability to work to Peggy Young – who
had a lifting restriction during pregnancy – even though
for many of them their inability to work as UPS drivers
arose from reasons other than a lifting restriction. At no
point did the Court limit its consideration of comparators
to those who needed the same accommodation as Ms.
Young. Putting aside Young’s unmistakable lessons,
however, the district court’s requirement that a plaintiff
show that workers “similar in their ability or inability to
work” were granted identical accommodations to those
she needs ignores the myriad, individualized reasons nonpregnant employees might be unable to perform all their
job functions; such reasons implicate not only their distinct
physical needs but also, their specific job duties. Narrowing
the fourth element in this way plainly contradicts the
presumption in Young in favor of accommodation of the
pregnant employee unless an employer has a “sufficiently
strong” nondiscriminatory reason for not providing an
accommodation. Granting Petitioner’s writ would allow
the Court to remedy this confusion and provide critical
guidance to the lower courts.

18
II. Review is necessary to resolve conflict between the
Fifth Circuit and Eighth Circuit regarding whether
who or what constitutes a comparator in the prima
facie stage to determine discriminatory animus
based upon Congress’ language in 42 U.S.C. Section
2000e(K) as articulated in McDonnell Douglas and
further defined in Young when referring to “***(as
other persons not so affected but similar in the
ability or inability to work.” More specifically can
a pregnant complainant be defined as a comparator
to herself to show that her employer’s reason for
an adverse employment action was pretextual as
pronounced in Deneen v. Northwest Airlines, Inc.,
132 F.3d 431 (8th Cir. 1987).
In a pregnancy discrimination case where the
plaintiff presented evidence of pregnant comparators,
the Eighth Circuit found the evidence relevant to similar
issues presented herein decided in Deneen v. Northwest
Airlines, Inc., 132 F.3d 431 (8th Cir. 1987). Deneen was
pregnant when she was recalled from layoff, and was
briefly placed on bed rest shortly before resuming work.
The employer rescinded the recall on the assumption that
she had pregnancy complications that made her unable
to work. Her request for light duty was denied, and she
was told that she would be rehired only if she could lift 75
pounds as required by her position. She sued for violation
of the PDA, claiming that she had been discriminated
against because of her complications. She claimed that
the 75-pound lifting requirement that was used to exclude
her from her job was not consistently applied, and that
she had never been able to lift that much even when not
pregnant. Part of her evidence was that two pregnant
employees who did not have complications were rehired,

19
and that they were given light duty when they later had
pregnancy-related lifting restrictions. A jury found in her
favor. On appeal, the employer challenged as irrelevant
her evidence of how the other pregnant employees were
treated. The Eighth Circuit rejected the argument,
holding that the pregnant comparators were relevant
because the “distinguishing feature is not pregnancy
alone but Mrs. Deneen’s pregnancy-related complication.
. . .” Id. at 438. It further found that the accommodation of
some pregnant employees and not others was “relevant to
resolving the question of whether the employer engaged
in intentional discrimination and whether the physical
requirement of the position is a bona fide occupational
qualification.” Id. Luke submits that these holdings are
instructive and persuasive in the present action.
The district court brushed aside Luke’s evidence and
reliance on Deneen, distinguishing that case because
Deneen, “unlike Plaintiff,” had not been made aware prior
to becoming pregnant that she would have to comply with
a lifting requirement. ROA. 87, p .4, fn. 3. This ruling
is based on faulty factfinding by the district court and
accepted by the Fifth Circuit. The district court accepted
CPlace’s claim that its CNAs had a lifting requirement that
Luke could not meet, despite Luke’s evidence disputing
the existence of a lifting requirement (see section II.B,
infra), and the absence of a claim or evidence from CPlace
that it gave Luke a written job description that contained
a lifting requirement. (This makes Luke’s case even
stronger than Deneen’s; Deneen’s job description did
contain a lifting requirement.) Moreover, CPlace’s policies
expressly required CNAs to get help to lift patients and
heavy objects, ROA. 44-2, pp.14, 15; 44-3 ¶¶8.2, 8.3, and,
similar to Deneen, CPlace did not consistently require

20
employees to be able to lift heavy amounts as shown by
its practice of requiring employees to get assistance with
lifting and providing modified work assignments that
did not require lifting. Luke submits that the evidence
of other pregnant women who did not have pregnancyrelated complications but were accommodated with
lifting assistance was sufficient to raise a genuine issue
of material fact regarding whether CPlace discriminated
and to cast doubt on CPlace’s proffered reason for its
actions. Moreover, it raised the inference that CPlace did
not require all CNAs to be able to engage in heavy lifting,
but rather demanded the ability to engage in heavy lifting
only from Luke because her pregnancy complications
restricted her lifting and CPlace could therefore use
a lifting requirement to force Luke out of her job. In
disregard of the foregoing, the district court appears to
have engaged in factfinding by rejecting Luke’s evidence
and accepting CPlace’s evidence as true and appears to
have drawn inferences from the evidence in CPlace’s favor.
Evidence presented by Luke to make out her
prima facie case was proof that CPlace had provided
accommodations to a non-pregnant, “other” employee:
Luke herself. Luke testified that prior to becoming
pregnant, she had used a mechanical lift, which she
described in her deposition as a lift with an anchor that
she used to move a patient to his chair because he was too
heavy, and that “most of the time she called in a guy to
help her to make sure that the patient wouldn’t fall while
being moved.” ROA. 42-2, pp.24-25. The lifting assistance
described by Supervisor Boligny and COO Bridges as
being available to all CNAs was also available to Luke.
The district court rejected this evidence on the ground
that it did not show that CPlace afforded accommodation
“to others.” ROA. 87 at 6. This ruling is erroneous and

21
reads Young unduly narrowly; courts regularly compare
the treatment of employees before and after pregnancy to
ascertain if pregnancy motivated an employer’s actions.
See, e.g., Martin v. Canon Bus. Solutions, Inc., 2013 U.S.
Dist. LEXIS 129008, at *25–26 (D. Colo. 2013) (plaintiff
presented evidence that she received multiple awards as
top salesperson but began getting reprimanded only days
after she announced her pregnancy); Hunter v. Mobis
Ala., LLC, 559 F. Supp. 2d 1247 (M.D. Ala. 2008) (evidence
showed that employer did not enforce attendance policy
until plaintiff became pregnant); Wilson v. O’GradyPeyton Int’l (USA), Inc., 2008 U.S. Dist. LEXIS 24394,
at *27–28 (S.D. Ga. 2008) (employee who alleged she
was compensated differently after becoming pregnant
could have been a close comparator for herself except
for evidence of changed working conditions during the
relevant time); Calabro v. Westchester BMW, Inc., 398
F. Supp. 2d 281, 293 (S.D.N.Y. 2005) (plaintiff presented
evidence that employer accommodated her before she was
pregnant but chose not to do so when she was pregnant).
It can be no different with Luke, who, when she
was not pregnant, was an employee not “affected” by
pregnancy. Luke’s evidence that she was permitted to
have assistance with lifting when she was not pregnant,
but not when she was restricted from lifting because of
pregnancy complications, is strong evidence that CPlace
accommodated non-pregnant employees in satisfaction
of the prima facie case and, further, showed that
CPlace’s actions were impermissibly motivated by Luke’s
pregnancy and complications.
Thus, certiorari is warranted to resolve a split
between the Fifth Circuit and Eighth Circuit regarding
who can be classified as comparators.

22
CONCLUSION
For all the foregoing reasons, petitioner respectfully
request that the Supreme Court grant review of this
matter.
Respectfully Submitted,
Victor J. Woods, Jr., Esq.
3834 New Prosperity Lane,
Suite A
Addis, Louisiana 70710
(225) 749-8696

James P. Manasseah, Esq.
Counsel of Record
Manasseh, Gill, Knipe
& Bélanger
8075 Jefferson Highway
Baton Rouge, Louisiana 70809
Addis, Louisiana 70710
(225) 383-9703
jimmy@manassehandgill.com

Counsel for Petitioner

APPENDIX

1a
APPENDIx A — Appendix
OPINIONAOF THE UNITED
STaTES COURT OF aPPEaLS FOR THE FIFTH
CIRCUIT, FILED JANUARY 14, 2019
IN THE United StAtes COuRt OF APPeALs
FOR the FiFth CiRcuit
No. 16-30992
ERYON LUKE,
Plaintiff - Appellant ,
v.
CPLACE FOREST PARK SNF, L.L.C., dOing
Business As NOttinghAm RegiOnAL
RehAB CenteR,
Defendant - Appellee.
January 14, 2019, Filed
Appeal from the United States District Court
for the Middle District of Louisiana
USDC No. 3:13-CV-402
Before DAVIS, GRAVES, and COSTA, Circuit Judges.
PER CURIAM:*
* Pursuant to 5th cIr. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except under
the limited circumstances set forth in 5th cIr. R. 47.5.4.

2a
Appendix A
The district court granted summary judgment
dismissing Eryon Luke’s pregnancy discrimination claim.
Because Luke has not presented evidence that would
allow a jury to discredit the employer’s nondiscriminatory
reason for firing her, we AFFIRM.
I.
Luke was a Certified Nursing Assistant (CNA) at a
skilled nursing rehabilitation center owned by CPlace
Forest Park. When she learned that she was pregnant with
twins, she told CPlace the good news through a doctor’s
note. The note informed CPlace that she could continue
working only if she did not engage in heavy lifting for two
weeks. Luke was given work that did not involve heavy
lifting by the weekend shift supervisor for two days, but
when the human resource manager returned, the manager
sent her home.
About ten days after the first note, Luke presented
a second note from her doctor that cleared her for work
with no restrictions. She was back on the job for about a
month and a half before she presented a second doctor’s
note that said she should not lift more than thirty pounds
for the duration of her pregnancy. CPlace said that it could
not abide this, that all the CNAs regularly had to lift more
than thirty pounds, and that there was no light duty work
available for Luke. As a result, Luke took the pregnancy
leave (up to four months) she is entitled to under Louisiana
law. la. stat. § 23:342(2)(b).

3a
Appendix A
About a month into her leave, Luke wrote a letter to
CPlace telling them that she would like to return to work
and that she “was able to perform all of my duties except
lifting patients.” She wrote, “I ask that you work with me
and allow my supervisors to make reasonable adjustments
to the type of work I am able to perform while under
doctor’s care.”
When four months were up, CPlace told Luke that
she was still “unable to return to work” and fired her. She
gave birth to her twins one month later.
Luke sued CPlace, but the district court entered
summary judgment against her. While her appeal was
pending, the Supreme Court decided Young v. United
Parcel Service, Inc., 135 S. Ct. 1338, 191 L. Ed. 2d 279
(2015). In light of Young, we vacated and remanded for
reconsideration by the district court. Luke v. CPlace
Forest Park SNF, L.L.C., 608 F. App’x 246 (5th Cir.
2015) (per curiam). The district court entered summary
judgment again, finding that Luke did not make out a
prima facie case of discrimination. This appeal followed.
II.
Luke relies only on indirect evidence to support
her claim. Young authorized use of the McDonnell
Douglas burden shifting framework to determine
when such circumstantial evidence is enough to defeat
summary judgment in a case alleging that denial of an
accommodation violated the Pregnancy Discrimination
Act. Young, 135 S. Ct. at 1353-54. The plaintiff bears the

4a
Appendix A
initial burden of making out a prima facie case “by showing
that she belongs to the protected class, that she sought
accommodation, that the employer did not accommodate
her, and that the employer did accommodate others
‘similar in their ability or inability to work.’” Id. at 1354
(citing 42 U.S.C. § 2000e(k)). If she does, the “employer
may then seek to justify its refusal to accommodate the
plaintiff by relying on ‘legitimate nondiscriminatory’
reasons for denying her accommodation.” Id. (quoting
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802,
93 S. Ct. 1817, 36 L. Ed. 2d 668 (1973)). If the employer
offers that justification, the onus returns to the employee
to show that the reasons given by the employer were not
its true reasons but a pretext for discrimination. Id.; see
also Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 143, 120 S. Ct. 2097, 147 L. Ed. 2d 105 (2000).
The parties focus on the first step of this inquiry, as
the district court held that Luke could not make out a
prima facie case. Our review of a summary judgment,
however, is not limited to the rationale of the district
court and we may affirm on any ground supported by
the record. See Holtzclaw v. DSC Communs. Corp., 255
F.3d 254, 258 (5th Cir. 2001). In addition to defending
the district court’s rationale, CPlace argues that we
can affirm on the alternative ground that it offers a
nondiscriminatory reason—Luke’s inability to perform
an essential aspect of her job—that the evidence does not
undermine. Because we agree that Luke does not point to
any evidence that casts doubt on CPlace’s justification, we
affirm on that ultimate question without deciding whether
she established a prima facie case. See, e.g., Diggs v.
Burlington Northern & Santa Fe Ry., 742 Fed. Appx. 1,
4 (5th Cir. 2018); Lay v. Singing River Health Sys., 694

5a
Appendix A
F. App’x 248, 254 (5th Cir. 2017); Easterling v. Tensas
Parish Sch. Bd., 682 F. App’x 318, 322 (5th Cir. 2017) (all
assuming arguendo that the plaintiff could establish a
prima facie McDonnell Douglas case in affirming grants
of summary judgment because plaintiff did not offer
evidence of pretext); see also Brady v. Office of Sergeant at
Arms, 520 F.3d 490, 493-94, 380 U.S. App. D.C. 283 (D.C.
Cir. 2008) (Kavanaugh, J.) (recommending that courts
focus on the pretext stage if the employer has identified
a nondiscriminatory reason for the employment action).
CPlace asserts that it fired Luke because being able
to lift more than thirty-five pounds was essential to the
job so certified nurses could lift residents when needed. It
further contends that it did not offer light duty positions
to its nurses.
Luke does not point to evidence that casts doubt on
this explanation. See Willis v. Cleco Corp., 749 F.3d 314,
318 (5th Cir. 2014). She tries to show that other workers
were given accommodations that involved less lifting. But
this involved receiving help from coworkers when lifting,
and there is no indication that the employer directed
these ad hoc accommodations. Whether the employer
engaged in disparate treatment is the question when
evaluating whether its nondiscriminatory explanation
should be discredited because it has not been consistently
applied. Cf. Rios v. Rossotti, 252 F.3d 375, 381 (5th
Cir. 2001) (citing Price Waterhouse v. Hopkins, 490
U.S. 228, 277, 109 S. Ct. 1775, 104 L. Ed. 2d 268 (1989)
(O’Connor, J., concurring) (explaining why statements
from nondecisionmakers do not help a plaintiff unless she
can show the employer was acting as a cat’s paw for that
coworker)). More fundamentally, none of the workers who

6a
Appendix A
allegedly received these accommodations were, like Luke,
under a doctor’s orders not to engage in heavy lifting.
Notably, when Luke’s doctor cleared her for work after
lifting the initial restriction, Luke was allowed to return.
It was only after the doctor again restricted her that Luke
was not allowed to work. Because Luke has not pointed
to any other CNAs who were accommodated when they
had a similar medical restriction on heavy lifting, there
is not evidence that would allow a jury to conclude that
CPlace is insincere when it says that such lifting is an
essential part of the job. Contrast Young, 135 S. Ct. at 1355
(“[W]hy, when the employer accommodated so many, could
it not accommodate pregnant women as well?”).
***
We AFFIRM the judgment of the district court. We
also DENY Luke’s motion to file a supplemental brief
after oral argument as both parties were afforded the
full process of briefing and argument.

7a
Appendix
B ORDER OF THE
APPENDIx B — RULING
AND
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF LOUISIANA, DATED
AUGUST 9, 2014
UNITEd STATES dISTRICT COURT
mIddLE dISTRICT OF LOUISIANA
CIVIL ACTION NO.: 13-00402-BAJ-EWd
ERYON LUKE
VERSUS
CPLACE FOREST PARK SNF, LLC
August 8, 2016, decided
August 9, 2016, Filed
RULING AND ORDER
Before the Court are cross-motions for summary
judgment filed by Plaintiff Eryon Luke (“Plaintiff’) and
Defendant CPlace Forest Park SNF, LLC, doing business
as Nottingham Regional Rehab Center (“Defendant”).
(Docs. 42, 44). Oral argument has been heard, (Doc. 76),
and voluminous briefing has been considered, (Docs.
48, 60, 73, 83, 84). For the reasons explained herein,
Defendant’s Renewed Motion for Summary Judgment
(Doc. 42) is GRANTED and Plaintiff’s Motion for
Summary Judgment (Doc. 44) is DENIED as moot.

8a
Appendix B
I.

BACKGROUND

On October 10, 2011, Defendant hired Plaintiff to work
as a Certified Nursing Assistant (“CNA”) at its skilled
nursing rehabilitation center. (See Doc. 42-8 at ¶ 1); (See
Doc. 60-7 at ¶ 1). Approximately two months later. Plaintiff
learned that she was six weeks pregnant with twins. (See
Doc. 1-2 at ¶ 4). Plaintiff immediately notified Defendant
of her pregnancy by way of a doctor’s note. (Id. at ¶ 5).
The note effectively stated that Plaintiff was a high-risk
pregnancy who could only continue to work if she did not
engage in any “heavy lifting for two weeks.” (See doc.
42-4 at pp. 7-9).
That, according to Defendant, was not possible. (Id. at
p. 2, ¶ 7). The CNA position, by its very nature, requires
heavy lifting, and defendant did not, at the time, have any
light duty positions for Plaintiff to fill. (Ibid.). Plaintiff was
accordingly told to go home, and not to return until she
was permitted, by her doctor, to work as a CNA without
restrictions. (Doc. 42-8 at ¶¶ 7-8). Ten days later, Plaintiff
was medically cleared to “return to routine work duties.”
(Doc. 42-4 at p. 10). Plaintiff returned to work as a CNA
on December 14, 2011. (Doc. 42-8 at ¶ 8).
On January 26, 2012, Plaintiff presented Defendant
with a second doctor’s note. (See Doc. 42-4 at p. 21). This
note prohibited Plaintiff from lifting more than 30 pounds
throughout the remainder of her pregnancy. Defendant
viewed this restriction as a non-starter. Every CNA was
regularly required to lift more than 30 pounds, and there
was no light duty for Plaintiff to perform. (Doc. 42-8 at
¶¶ 18-20).

9a
Appendix B
Plaintiff was therefore forced to take leave. She had
four months pursuant to la. stat. A nn. § 23:342. (Id. at
¶ 23). Her leave began on January 23, 2012, (id. at ¶ 24),
and expired on May 23, 2012, (id. at ¶ 28). On May 23,
2012, Defendant informed Plaintiff that “there was still”
no light duty for her to perform and that unless she could
return to full duty “she would be terminated on May 24,
2012.” (Ibid.). On May 24, 2012, Plaintiff was fired for not
being able to lift more than 30 pounds. (Ibid.). She was
approximately seven months pregnant. Plaintiff gave birth
to twins on June 21, 2012. (Id. at ¶ 30).
On May 15, 2013, Plaintiff filed this lawsuit alleging,
inter alia, that Defendant’s refusal to accommodate her
pregnancy violated Title VII of the Civil Rights Act of
1964, as amended by the Pregnancy Discrimination Act
of 1978 (“PDA”), 42 U.S.C. § 2000e(k).1 (Doc. 1-2 at ¶¶ 6-7).
II. STANDARD OF REVIEW
Pursuant to the Federal Rules of Civil Procedure,
“[t]he [C]ourt shall grant summary judgment if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). In determining whether the
movant is entitled to summary judgment, the Court views
the facts in the light most favorable to the non-movant and
draws all reasonable inferences in the non-movant’s favor.
Coleman v. Houston Independent School Dist., 113 F.3d
528, 533 (5th Cir. 1997).
1. This is the only claim currently before the Court. See doc.
37 at pp. 3-4.

10a
Appendix B
After a proper motion for summary judgment is made,
the non-movant must set forth specific facts showing there
is a genuine issue for trial. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 250, 106 S. Ct. 2505, 91 L. Ed. 2d 202
(1986). At this stage, the Court does not evaluate the
credibility of witnesses, weigh the evidence, or resolve
factual disputes. Int’l Shortstop, Inc. v. Rally’s, Inc., 939
F.2d 1257, 1263 (5th Cir. 1991), cert. denied, 502 U.S.
1059, 112 S. Ct. 936, 117 L. Ed. 2d 107 (1992). However, if
the evidence in the record is such that a reasonable jury,
drawing all inferences in favor of the non-moving party,
could arrive at a verdict in that party’s favor, the motion
for summary judgment must be denied. Int’l Shortstop,
Inc., 939 F.2d at 1263.
On the other hand, the non-movant’s burden is not
satisfied by some metaphysical doubt as to the material
facts, or by conclusory allegations, unsubstantiated
assertions, or a mere scintilla of evidence. Little v. Liquid
Air Corp., 37 F.3d 1069, 1075 (5th Cir. 1994). Summary
judgment is appropriate if the non-movant “fails to make a
showing sufficient to establish the existence of an element
essential to that party’s case.” Celotex Corp. v. Catrett,
477 U.S. 317, 324, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986).
In other words, summary judgment will lie only “if the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with affidavits if any, show
that there is no genuine issue as to any material fact, and
that the moving party is entitled to judgment as a matter
of law.” Sherman v. Hallbauer, 455 F.2d 1236, 1241 (5th
Cir. 1972).

11a
Appendix B
III.

DISCUSSION

Young v. UPS, 135 S. Ct. 1338, 1353-54, 191 L.
Ed. 2d 279 (2015) (abrogating Urbano v. Continental
Airlines, Inc., 138 F.3d 204 (5th Cir. 1998)), established
a new test by which courts are to analyze failure to
accommodate 2 claims brought by pregnant workers
who seek to rely upon indirect 3 evidence to establish
2. defendant asserts that Young does not apply to failure to
accommodate claims that result in termination. See doc. 42-9 at
p. 6 n.8. That argument, however, has already been foreclosed by
Fairchild v. All Am. Check Cashing, Inc., 815 F.3d 959. 967 (5th
Cir. 2016).
3. Plaintiff asserts, in her motion for summary judgment,
that she has presented direct evidence of Defendant’s alleged
Title VII violation. See Doc. 44-2 at pp. 4-6. She has not. See
Lazarou v. Mississippi State Univ., 549 F. App’x 275, 278 (5th
Cir. 2013) (holding that direct evidence, in the context of Title
VII, “includes any statement or document which shows on its face
that an improper criterion served as a basis—not necessarily
the sole basis, but a basis—for the adverse employment action”);
Doc. 42-5 at p. 8 (wherein Defendant’s Regional Director of
Human Resources, Donna Duplantis, admits that, at all times
relevant to this Ruling and Order, defendant did not have a
policy governing employees who could only perform light work).
Moreover, Plaintiff’s reliance on Deneen v. Nw. Airlines, Inc., 132
F.3d 431 (8th Cir. 1998), and Carney v. Martin Luther Home, Inc.,
824 F.2d 643 (8th Cir. 1987), is misplaced. The plaintiff in Deneen
was an airline customer service agent who, upon learning she was
pregnant, was told not to return to work until she was cleared to
lift luggage weighing up to 75 pounds. See Deneen, 132 F.3d at 434.
She, unlike Plaintiff, “had not previously been [made] aware that
she would have to comply with any particular lifting requirements”
and believed that she could, throughout her pregnancy, fulfill

12a
Appendix B
disparate treatment 4 in violation of Title VII. Under
Young, the pregnant worker must first make out a prima
facie case by establishing: (1) that she belongs to the
protected class, (2) that she sought an accommodation,
“most of’ her employment-related obligations. See id.; Doc. 60-2
at 117:10-12 (wherein Plaintiff admits that she could not, while
pregnant, fulfill her employment-related obligations); Doc. 60-7
at ¶ 18 (wherein Plaintiff admits that her “physical restrictions
. . . prevented her from performing the duties of a CNA”). The
plaintiff in Carney was a houseparent/adult services trainer at
an intermediate care facility who, four and a half months into
her pregnancy, was involuntarily placed on medical leave based
solely upon a doctor’s recommendation that she not engage in
any “inordinate lifting.” See Carney, 824 F.2d at 644 n.2, 644-45.
She, unlike Plaintiff, did not seek, and in fact asserted that the
doctor’s recommendation did not warrant, a pregnancy-related
accommodation. See id. at 645; Doc. 1-2 at ¶ 5 (D) (wherein Plaintiff
asserts that, upon learning she was pregnant, she “requested to
work at the main nurse’s station as a nurse dispatch . . . which
required no heavy lifting”). There is furthermore no evidence,
as there was in Carney, that Defendant accommodated “other
employees with similar restrictions . . . .” See Carney, 824 F.2d
at 645; Doc. 42-4 at ¶ 5 (wherein Defendant’s Human Resources
Payroll manager asserts that, at all times relevant to this Ruling
and Order, Defendant did not “offer ‘light duty’ positions to [any
of its] employees”); Doc. 60-2 at 85:22-24 (wherein Plaintiff admits
that she is unaware of Defendant having ever provided another
CNA with her sought-after accommodation).
4. The evidence in the record makes clear that Plaintiff does
not seek to raise a claim of disparate impact. See Stout v. Baxter
Healthcare Corp., 282 F.3d 856, 860 (5th Cir. 2002) (noting that
“[o]rdinarily, a prima facie disparate impact case requires a
showing of a substantial statistical disparity between protected
and non-protected workers in regards to employment or
promotion”) (internal quotations and citations omitted).

13a
Appendix B
(3) that the employer did not accommodate her, and (4)
that the employer accommodated others similar in their
ability or inability to work. Id. at 1354. If all four of these
elements are met, the employer must articulate at least
one legitimate, nondiscriminatory reason for “denying
[the pregnant worker] her accommodation.” Ibid. (internal
quotations and citations omitted). If the employer offers
a legitimate, nondiscriminatory reason for denying the
pregnant worker her accommodation, the pregnant
worker must show that the employer’s proffered reason
is “in fact pretextual.” Ibid. Where a pregnant worker
produces “evidence that the employer accommodates a
large percentage of nonpregnant workers while failing to
accommodate a large percentage of pregnant workers,”
summary judgment as to the issue of pretext will not lie. 5
Ibid.
A.

Plaintiff’s Prima Facie Case

Certain elements of this case are undisputed. Plaintiff
was, by virtue of her pregnancy, a member of a protected
class. 42 U.S.C. § 2000e(k). Plaintiff could not, while
pregnant, undertake the lifting required of a CNA. (See
Doc. 60-2 at 98:9-12, 103:6-105:18, 117:10-12). Plaintiff
sought to have Defendant accommodate her with “light
duty,” i.e., work that would not require her to lift more than
30 pounds. Defendant declined to assign Plaintiff “light
duty.” (Doc. 42-8 at TJU 18-20). Plaintiff thereafter filed
this lawsuit alleging, inter alia, that Defendant’s refusal to
accommodate her violated Title VII of the Civil Rights Act
5. This is, of course, merely one of the ways in which a plaintiff
can establish pretext.

14a
Appendix B
of 1964, as amended by the Pregnancy Discrimination Act
of 1978 (“PDA”), 42 U.S.C. § 2000e(k). (Doc. 1-2 at ¶¶ 6-7).
Plaintiff avers that she “previously worked light duty,”
(Doc. 60 at p. 4) (citing Doc. 60-2 at 85:22-24), and that
there was “ample light duty work” for her to perform,
(Doc. 60 at p. 8). Even assuming arguendo that is true,
Plaintiff has failed to do what Young requires. That is, to
present evidence that “light duty” was an accommodation
that defendant afforded to others similar in their ability
or inability to work.
“Light duty” is the only accommodation that Plaintiff
sought from Defendant. (Doc. 60-2 at 85:11-89:25). And
with respect to that accommodation. Plaintiff has failed to
prove her prima facie case. Nonetheless, Plaintiff asserts
that her “failure to accommodate claim is broader” than
the “light duty” accommodation that she sought. (Doc. 60
at p. 3). Plaintiff believes that she could have continued to
work as a CNA throughout her pregnancy if she had been
afforded increased “lifting assistance and mechanical
lifts.” (Id. at pp. 4-6). To be clear: Plaintiff never sought
either accommodation. But she alleges that they were both
afforded to others in violation of Title VII.
It is self-evident that where, as here, Plaintiff sought
a specific accommodation, her PDA claim is limited to
Defendant’s denial thereof. Additionally, the Court notes
that with respect to the issue of “lifting assistance and
mechanical lifts,” Plaintiff relies exclusively 6 upon the
6. The Court further holds that the testimony of Belinda
Gly nn (“Glynn”) is wholly ir relevant to this Ruling and

15a
Appendix B
testimony of other pregnant women. (Doc. 84). The PDA
does not require that all pregnant women be treated
equally. It simply requires that pregnant women not be
treated less favorably than those outside of their protected
class. See Arizanovska v. Wal-Mart Stores, Inc., 682 F.3d
698, 703 (7th Cir. 2012); Miles v. Dell, Inc., 429 F.3d 480,
490 n.7 (4th Cir. 2005); Lawson v. City of Pleasant Grove,
No. 2:14-CV-0536-JEO, 2016 U.S. dist. LEXIS 57264,
2016 WL 2338560, at *10 (N.D. Ala. Feb. 16, 2016), report
and recommendation adopted, No. 2:14-CV-536-KOB,
2016 U.S. Dist. LEXIS 57178, 2016 WL 1719667 (N.D.
Ala. Apr. 29, 2016); Nelson v. Chattahoochee Valley Hosp.
Soc., 731 F. Supp. 2d 1217, 1230 (M.D. Ala. 2010); Hobbs
v. Ketera Techs., Inc., 865 F. Supp. 2d 719, 728 n.4 (N.D.
Tex. 2012); Anderson v. Dunbar Armored, Inc., 678 F.
Supp. 2d 1280, 1309 (N.D. Ga. 2009); cf. Newport News
Shipbuilding & Dry Dock Co. v. E.E.O.C., 462 U.S. 669,
690, 103 S. Ct. 2622, 77 L. Ed. 2d 89 (1983) (noting that
the PDA was intended to ensure that “working women are
not treated differently because of pregnancy”) (emphasis
added).
B. Final Observations
“The PDA was enacted to overrule the Supreme
Court’s decision in General Electric Co. v. Gilbert, 429 U.S.
Order. Doc. 84 at pp. 6-7. Glynn’s testimony is based upon her
experience as the Resident Care Director at a facility by the
name of Amber Terrace. Doc. 84-3 at 11:4-13:4. Defendant has
never owned or operated Amber Terrace. Defendant merely
manages “Nottingham Regional Rehabilitation Center pursuant
to a Property Management Agreement with LA Management
Holdings, LLC.” Doc. 47-1 at p. 20.

16a
Appendix B
125, 97 S. Ct. 401, 50 L. Ed. 2d 343 (1976), which . . . held
that excluding pregnancy from a list of nonoccupational
disabilities covered by an employer’s disability benefits
plan did not amount to discrimination on the basis of
sex.” Hall v. Nalco Co., 534 F.3d 644, 647 (7th Cir. 2008).
In doing so, the United States Congress turned pregnant
women into a protected class.
Unfortunately, this case highlights a prominent gap
in the PDA. As many as 10 percent of pregnancies are
considered high-risk.7 They too deserve to be protected,
not merely as a matter of law, but also as a matter of
fact. Courts are generally not in the business of making
law, and the Court will not venture to do so here. Still,
one cannot ignore that “pregnancy, from a biological
standpoint, is unlike any other condition and has no
equal comparator.” Rubeena Sachdev, How to Protect
Pregnancy in the Workplace, 50 U.s.F. l. reV. 333, 334
(2016). No pregnant woman should, in 2016, be fired for
being unable to lift more than 30 pounds.
IV. CONCLUSION
Accordingly,
IT IS ORDERED that Defendant’s Renewed Motion
for Summary Judgment (Doc. 42) is GRANTED,
and Plaintiff’s Title VII claim, (Doc. 1-2 at ¶¶ 6-7), 8 is
7. Uc I rV ine h ea lt h , http://w w w.ucir vinehealth.org /
medical-services/raaternity/high-risk-pregnancy/.
8. Both sides seem to suggest that Plaintiff has pled two
Title VII claims. See supra p. 5 n.3. She has not. Plaintiff’s Title

17a
Appendix B
DISMISSED WITH PREJUDICE pursuant to Rule 56.
IT IS FURTHER ORDERED that Plaintiff’s
Motion for Summary Judgment (Doc. 44) is DENIED
as moot.
IT IS PURTHER ORDERED that Defendant’s Joint
Motion to Consolidate (Doc. 74) is DENIED pursuant
to 28 U.S.C. § 1367(c)(3).
IT IS FURTHER ORDERED that Defendant’s
Motion to Strike Plaintiff’s Supplemental Memorandum
in Opposition to Defendant’s Renewed Motion for
Summary Judgment (Doc. 85) is DENIED as moot.
IT IS FURTHER ORDERED that Plaintiff’s Ex
Parte Combined Motion to Withdraw/’Strike Previously
Filed Pleadings, and Substitute Attached Pleadings for
Same (Doc. 86) is DENIED as moot.
Baton Rouge, Louisiana, this 8th day of August, 2016.
/s/ Brian A. Jackson
BRIAN A. JACKSON, CHIEF JUDGE
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA

VII claim is a single failure to accommodate claim. That claim is
DISMISSED WITH PREJUDICE pursuant to Rule 56.

18a
Appendix
C ORDER OF THE
APPENDIx C — RULING
aND
UNITED STaTES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF LOUISIaNa, FILED
NOVEMBER 4, 2014
UNITEd STATEs DIsTRICT COuRT
mIddLE DIsTRICT OF LOuIsIANA
CIVIL ACTION NO.: 13-00402-BAJ-SCR
ERYON LUKE
VERSUS
CPLACE FOREST PARK, SNF, LLC
November 4, 2014, Decided
November 4, 2014, Filed
RULING AND ORDER
Before the Court is Defendant’s MOTION FOR
SUMMARY JUDGMENT (Doc. 10), seeking an order
dismissing Plaintiff’s claims in their entirety, pursuant to
Federal Rule of Civil Procedure (“Rule”) 56, as well as an
order holding Plaintiff liable for attorney’s fees. Plaintiff
opposes this motion. (Doc. 12). Upon being granted leave,
Defendant filed a Reply Brief in support of its Motion for
Summary Judgment. (Doc. 22). The Court has jurisdiction
pursuant to 28 U.S.C. §§ 1331, 1367. Additional briefing is
not required. Oral argument is not necessary.

19a
Appendix C
I. 	BACKGROUND
Plaintiff Eryon Luke asserts several discriminationrelated claims against Defendant CPlace Forest Park,
SNF, LLC d/b/a Nottingham Regional Rehab Center
(“Nottingham”), which is owned by Traditions Senior
management. Plaintiff ’s allegations stem from her
fulltime employment at Nottingham as a certified
nursing assistant (“CNA”) from October 10, 2011 to may
24, 2012. (See Doc. 12 at p. 1). As a CNA, Plaintiff’s job
responsibilities included turning residents in bed, lifting
patients from their beds to wheelchairs, pushing residents
in wheelchairs, and ensuring that patients did not fall
while walking. (Doc. 12 at p. 4).
On December 2, 2011, Plaintiff learned she was six
weeks pregnant with twins. (Doc. 1 at ¶ 4). Plaintiff
returned to work the next day with a note from her
doctor certifying that she was able to work, provided that
she did not engage in heavy lifting for two weeks. (Id.).
On December 3 and 4, Plaintiff’s immediate supervisor
permitted Plaintiff to do “light duty” work that did not
involve heavy lifting. (Id. at ¶ 5). On December 5, Plaintiff
met with Rachael Carcamo, Human Resources Payroll
manager for Defendant, to discuss Plaintiff’s lifting
restrictions. (Id. at ¶ 6). Plaintiff remained off work until
her doctor signed a release removing lifting restrictions
on December 12, 2011. (Id. at ¶ 7). On January 22, 2012,
Plaintiff brought a doctor’s note certifying that Plaintiff
could not lift more than thirty pounds for the remainder
of her pregnancy. (Doc. 12 at p. 5). Plaintiff admitted that
she was physically unable to perform her job as a CNA

20a
Appendix C
after her doctor issued these heavy-lifting restrictions.
(Doc. 12-1 at pp. 98, 99-100). January 22, 2012 was the
last day Plaintiff performed any work at Nottingham.
(Doc. 12 at p. 5).
On January 23, 2012, Plaintiff was informed that she
needed to pick up paperwork for leave. (Id. at ¶ 5(C)).
Defendant issued FmLA forms specifying that Plaintiff
would take leave from January 23, 2012 to may 23, 2012.
(Doc. 12 at p. 6; see also Doc. 12-3 at p. 1).
On may 23, Carcamo met with Plaintiff and informed
Plaintiff that there was no work available for Plaintiff,
subject to Plaintiff’s lifting restrictions, and that Plaintiff’s
employment would be terminated on may 24 if Plaintiff
could not return to work then. (Doc. 12 at p. 6). Plaintiff’s
employment at Nottingham ended on may 24, 2012. (See
Doc. 12 at p. 1). Plaintiff delivered her twins on June 21,
2012. (Doc. 12 at p. 6).
Plaintiff’s Complaint asserts that she was subject
to discriminatory employment practices based on her
pregnancy, in violation of Title VII of the Civil Rights
Act of 1964 (“Title VII”) as amended by the Pregnancy
Discrimination Act of 1978 (“PDA”), 42 U.S.C. § 2000e(k);
the Family and medical Leave Act of 1993 (“FmLA”),
29 U.S.C. § 2601, et seq.; and the Louisiana Employment
Discrimination Law (“LEDL”), La. R.S. 23:301, et seq.
(Doc. 1). Defendant’s motion for Summary Judgment
seeks to dismiss these claims with prejudice and also
seeks an order assessing fees against Plaintiff for the
frivolous filing of claims under La. R.S. 23:303(B). (Doc.
10). Plaintiff opposes Defendant’s motion. (Doc. 12).

21a
Appendix C
II. 	LEGAL STANDARD
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material
fact and that the movant is entitled to a judgment as a
matter of law.” Fed. R. Civ. P. 56(a). “[W]hen a properly
supported motion for summary judgment is made, the
adverse party must set forth specific facts showing that
there is a genuine issue for trial.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 250, 106 S. Ct. 2505, 91 L. Ed.
2d 202 (1986) (quotation marks and footnote omitted).
“This burden is not satisfied with some metaphysical
doubt as to the material facts, by conclusory allegations,
by unsubstantiated assertions, or by only a scintilla of
evidence.” Little v. Liquid Air Corp., 37 F.3d 1069, 1075
(5th Cir. 1994) (quotation marks and citations omitted). In
determining whether the movant is entitled to summary
judgment, the Court “view[s] facts in the light most
favorable to the non-movant and draw[s] all reasonable
inferences in her favor.” Coleman v. Houston Indep. Sch.
Dist., 113 F.3d 528, 533 (5th Cir. 1997).
In sum, summary judgment is appropriate if, “after
adequate time for discovery and upon motion, [the nonmoving party] fails to make a showing sufficient to
establish the existence of an element essential to that
party’s case, and on which that party will bear the burden
of proof at trial.” Celotex Corp. v. Catrett, 477 U.S. 317,
322, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986).

22a
Appendix C
III.	DISCUSSION
a. 	Title VII
Under Title VII, as amended by the PDA, Plaintiff
claims that: (1) Defendant unlawfully terminated
Plaintiff’s employment in may 2012, and (2) Defendant
unlawfully prohibited Plaintiff from working regularly
after Plaintiff returned from a two-week period of leave
in December 2011. (Doc. 1-2 at ¶¶ 6-7).
Title VII prohibits a covered employer from failing or
refusing to hire, discharging, or otherwise discriminating
against “any individuals . . . because of such individual’s
race, color, religion, sex, or national origin.” 42 U.S.C.
§ 2000e-2(a)(1). The PDA amended Title VII, clarifying
that “women affected by pregnancy, childbirth, or
related medical conditions shall be treated the same for
all employment-related purposes . . . as other persons
not so affected but similar in their ability or inability to
work . . . .”
A claim brought under the PDA is analyzed like
any other Title VII discrimination claim. Urbano v.
Cont’l Airlines, Inc., 138 F.3d 204, 206 (5th Cir. 1998).
Where the plaintiff has not presented direct evidence of
discrimination, as in this case, we apply the burden-shifting
framework of McDonnell Douglas Corp. v. Green, 411 U.S.
792, 93 S. Ct. 1817, 36 L. Ed. 2d 668 (1973): A plaintiff
alleging disparate treatment must establish a prima facie
case of discrimination by showing that (1) she is a member
of a protected class; (2) she was qualified for the position;

23a
Appendix C
(3) she suffered an adverse employment action; and (4)
others similarly situated were treated more favorably.
See Appel v. Inspire Pharms., Inc., 428 Fed. Appx. 279,
281 (5th Cir. 2011). After the plaintiff has made her prima
facie case, the employer must provide “some legitimate
nondiscriminatory reason” for the adverse action taken.
Id. If the employer provides a nondiscriminatory reason,
the burden shifts to the plaintiff to show a genuine issue
of material fact that either (1) the employer’s proffered
nondiscriminatory reason is a pretext for discrimination,
or (2) regardless of the nondiscriminatory reason, the
discriminatory reason was a motivating factor in the
employer’s action. Id. at 282 (Alvarado v. Texas Rangers,
492 F.3d 605, 611 (5th Cir. 2007)).
Here, Plaintiff’s claim fails to establish a prima facie
case of discrimination, because she has not shown that she
was qualified for the position. The Fifth Circuit directly
addressed the issue of employee qualifications during
pregnancy in Appel v. Inspire Pharmaceuticals, Inc.,
where the plaintiff Appel failed to establish the second
element of a prima facie PDA case because she was
physically unable to execute many of her responsibilities
that were “essential to proper performance” due to
medical complications arising from her pregnancy. 428 F.
App’x 279, 283 (5th Cir. 2011). Appel, like Plaintiff in the
instant case, argued that there were some aspects of her
work she could perform even with medical restrictions.
See id. at 283. But because Appel could not rebut the
fact that she was unable to handle many of the physical
responsibilities necessary to do her job properly, the Fifth
Circuit affirmed a summary judgment ruling granted on

24a
Appendix C
the basis that Appel could not satisfy the second element
of the prima facie case of discrimination. See id. at 283-84.
The instant case falls squarely within the ambit
of Fifth Circuit precedent. Even if Plaintiff could still
accomplish certain aspects of her job while under medical
limitations, Plaintiff cannot rebut the fact that she was
unable to fulfill several essential physical responsibilities
of a CNA once her doctor imposed heavylifting restrictions.
The parties do not dispute that CNA job duties include
turning residents in bed, lifting patients from their beds
to wheelchairs, pushing residents in wheelchairs, and
ensuring that patients do not fall while walking. (Doc. 12-1
at pp. 37-39). Under Title VII, Defendant is not under any
duty to adjust CNA job duties to accommodate Plaintiff on
account of her pregnancy. See Urbano v. Cont’l Airlines,
Inc., 138 F.3d 204, 207 (5th Cir. 1998) (affirming the
principle that “the PDA does not impose an affirmative
obligation on employers to grant preferential treatment
to pregnant women”).
Plaintiff directs this Court to her deposition testimony,
where she states that she had in the past used a mechanical
lift for “one guy” and that “most of the time” she sought
the assistance of a male employee to ensure that a patient
did not fall. (Doc. 12-1 at pp. 39-40). Yet Plaintiff stated
multiple times in her deposition that she did not think she
could perform her job as a CNA once her doctor ordered
her to not lift in excess of thirty pounds during her
pregnancy. (Doc. 12-1 at pp. 98-100). Plaintiff conceded
that lifting was a “big part” of her CNA responsibilities.
(Id. at p. 73). Furthermore, the parties do not dispute

25a
Appendix C
that at any given time during Plaintiff’s employment at
Nottingham, Plaintiff was solely responsible for the care
of ten to fifteen patients. (Id. at pp. 38-39) (emphasis
added). Plaintiff has presented no evidence to contradict
Defendant’s position that heavy lifting was essential to
proper performance of CNA duties, even when Plaintiff
received help from mechanical lifts and fellow employees.
Plaintiff has raised no genuine dispute as to the fact
that she was not qualified to work as a CNA with her
medical restrictions and therefore cannot satisfy the
second element of her prima facie claim. Plaintiff has no
cause of action under Title VII. Accordingly, Defendant’s
motion for Summary Judgment is GRANTED regarding
both Plaintiff’s claims under Title VII.
b. 	FMLA
Under the FmLA, Plaintiff alleges that: (1) Defendant
forced Plaintiff to take FmLA leave, preventing her from
working; (2) the imposition of leave exhausted the leave
time available to Plaintiff upon her children’s birth; and
(3) Defendant did not reinstate Plaintiff upon her doctor’s
certification that she was able to return to work with light
duty restrictions. (Doc. 1-2 at ¶¶ 10-11).
The FmLA prohibits an employer from interfering
with, restraining, or denying the exercise or attempted
exercise of an employee’s right to take FmLA leave.
29 U.S.C. § 2615(a). To establish a prima facie case of
interference, Plaintiff must establish that (1) Plaintiff is
an eligible employee, (2) Defendant is an employer subject

26a
Appendix C
to the FmLA, (3) Plaintiff is entitled to leave under the
FmLA, (4) Plaintiff gave proper notice of the intent to
take leave, and (5) Plaintiff was denied benefits by her
employer. See Spears v. La. Dep’t of Pub. Safety & Corr.,
2 F. Supp. 3d 873, 877-78 (M.D. La. 2014). As to the first
prong of this inquiry, an employee is deemed eligible for
FMLA benefits from an FMLA-covered employer when
she (1) has been employed for at least twelve months, and
(2) has worked for at least 1,250 hours during the previous
twelve-month period. 29 U.S.C. § 2611(2).
Defendant calculated Plaintiff’s leave of absence as
lasting from January 23, 2012 to may 23, 2012. (Doc.
12 at p. 6). For this period of leave, Rachael Carcamo,
Human Resources Payroll manager for Defendant,
completed paperwork using FmLA forms. (Doc. 10-4
at ¶ 19). Defendant acknowledges that it provided this
FmLA documentation by mistake. (Doc. 10-5 at p. 9).
Plaintiff did not meet the statutory requirement for
FmLA leave eligibility at any point while she worked at
Nottingham from October 2011 to may 2012. The Court
will not conjecture as to how many hours Plaintiff would
have worked had she not been forced to take four-month
leave in February 2012. See Buchanan-Rushing v. City
of Royse City, Texas, 794 F. Supp. 2d 687, 696 (N.D. Tex.
2011) (finding that “such a calculation is highly speculative,
and lacks support from either the statutory language or
the relevant case law”). Regardless, Plaintiff would not
have been eligible at the time of her termination because
twelve months had not elapsed since her start date at
Nottingham. Plaintiff was never entitled to FmLA leave
during her employment at Nottingham, so she has no viable
claim that her FmLA leave was unlawfully exhausted.

27a
Appendix C
Although Defendant concedes that it erroneously
conveyed to Plaintiff that she was being placed on FmLA
leave, (Doc. 10-5 at p. 9), the evidence in the record does not
support Plaintiff’s invocation of the doctrine of equitable
estoppel. In the context of FmLA leave, the Fifth Circuit
has explained the principle of equitable estoppel:
[A]n employer who without intent to deceive
makes a definite but erroneous representation
to his employee that she is an “eligible employee”
and entitled to leave under FmLA, and has
reason to believe that the employee will rely
upon it, may be estopped to assert a defense of
non-coverage, if the employee reasonably relies
on that representation and takes action thereon
to her detriment.
Minard v. ITC Deltacom Commc’ns, Inc., 447 F.3d 352,
359 (5th Cir. 2006). The employee claiming estoppel must
have relied on the employer’s representations “in such a
manner as to change his position for the worse.” Id. at 359
(Heckler v. Cmty. Health Servs. of Crawford Cnty., Inc.,
467 U.S. 51, 59, 104 S. Ct. 2218, 81 L. Ed. 2d 42 (1984)).
Plaintiff has not asserted that she in any way changed
her position because of Defendant’s representations that
she was entitled to leave under the FmLA. As discussed
above, Plaintiff admitted that she was physically unable
to perform her job as a CNA after her doctor issued
heavy-lifting restrictions for the remainder of Plaintiff’s
pregnancy. (Doc. 12-1 at pp. 98, 99-100). Plaintiff had no
choice but to take leave beginning January 2012, as she
was unable to work as a CNA given her medical condition

28a
Appendix C
at that time. Plaintiff cannot, therefore, claim benefits
under the FmLA under a theory of equitable estoppel.
Accordingly, because Plaintiff has no standing to
sue under the FmLA, Defendant’s motion for Summary
Judgment is GRANTED with respect to all Plaintiff’s
claims under the FmLA.
c. 	LEDL
Finally, under the LEDL, Plaintiff alleges that:
(1) Defendant unlawfully denied her the full amount of
pregnancy leave to which she was entitled under the state
statute, and (2) Defendant refused to transfer Plaintiff
to a less strenuous or hazardous position during her
pregnancy.
1. 	Denial of Full LEDL Leave
The LEDL prohibits a covered employer from
refusing to allow a female employee to “[t]o take a leave
on account of pregnancy for a reasonable period of time,
provided such period shall not exceed four months.” La.
R.S. 23:342(2)(b). The last day Plaintiff performed any
work at Nottingham was January 22, 2012. (Doc. 12 at
p. 5). Defendant calculated Plaintiff’s leave to run from
January 23, 2012 to may 23, 2012. (Doc. 12 at p. 6; see also
Doc. 12-3 at p. 1).
In her complaint, Plaintiff alleges that Defendant
violated the LEDL by denying her four months of
additional leave beginning may 24, 2012. As discussed

29a
Appendix C
above, Plaintiff was ineligible for FmLA leave. Plaintiff’s
four months of leave were drawn from her entitlement
under the LEDL.1 As a matter of law, Plaintiff was not
entitled to another four months of leave beginning may
24, 2012.
Plaintiff also disputes when her leave began. Plaintiff
asserts that she did not receive written notice of her leave
until “after February 10, 2012” and that her LEDL leave
should be calculated from that point forward, three weeks
later. Plaintiff cites no law to support her assertion that
her leave should have been calculated from the date she
received written notice. Furthermore, the evidence in
the record demonstrates Plaintiff’s own understanding
that her leave began soon after her last day performing
work at Nottingham. Plaintiff was informed on January
23, 2012 by Defendant that she would be put on FmLA
leave. Plaintiff stated in her deposition, “January 24th is
when I left off for FmLA.” (Doc. 12-1 at p. 54). FmLA
regulations explicitly contemplate that notice of the
need to take leave may arise after the actual start of
FmLA leave. See 29 C.F.R. §825.219 (“. . . at the time the
employee gives notice of the need for FmLA leave (or when
FMLA leave commences, if earlier)” (emphasis added).
The federal leave regulations are persuasive though not
binding here since, as discussed, Defendant mistakenly
1. Even in a hypothetical situation in which Plaintiff had
qualified for FMLA leave in addition to LEDL leave, her periods of
leave allotted under the two statutes would have run concurrently.
“If leave qualifies for FMLA leave and leave under State law, the
leave used counts against the employee’s entitlement under both
laws.” 29 C.F.R. §825.701.

30a
Appendix C
characterized Plaintiff’s leave as FmLA leave instead of
as LEDL leave. But in the absence of Plaintiff citing any
law that would counsel against starting the clock on leave
the day after Plaintiff’s last day at work, Plaintiff has no
legitimate claim under the LEDL based on Defendant’s
calculation of leave dates.
2. 	Reasonable Accommodation
Plaintiff asserts that Defendant also violated the
LEDL by refusing to transfer her to a light-duty position.
The LEDL provides that an employer, if requested, must
transfer a pregnant employee to “a less strenuous or
hazardous position for the duration of her pregnancy . . .
where such transfer can be reasonably accommodated.”
La. R.S. 23:342(4). In helping to define the contours of
reasonable accommodation, the statute specifies that
“no employer shall be required . . . to create additional
employment which the employer would not otherwise have
created, nor shall such employer be required to discharge
any employee, transfer any employee with more seniority,
or promote any employee who is not qualified to perform
the job.” La. R.S. 23:342(4).
Although Plaintiff’s medical restrictions rendered
her unqualified for the CNA position, there remains a
genuine dispute of fact as to whether Defendant could have
reasonably accommodated Plaintiff in another position,
with light duty work that did not involve lifting over thirty
pounds. Plaintiff asserts that after she notified Defendant
of her pregnancy and her doctor’s orders in December,
she was allowed to take light duty work, helping out other

31a
Appendix C
employees. (Doc. 12-1 at p. 48). Plaintiff further asserts
that “Nottingham did have positions that did not require
lifting over thirty pounds.” (Doc. 12 at p. 6). However,
in response, Defendant avers that no vacant positions
or positions held by someone with less seniority were
available to Plaintiff, (Doc. 10-5 at pp. 14-15), and notes
that Plaintiff failed to inquire through discovery whether
such positions were available during the relevant time
period, (Doc. 22 at p. 4 n.4). Defendant further states that
Plaintiff’s weekend supervisor allowed Plaintiff to perform
work that did not involve heavy lifting the weekend after
Plaintiff discovered she was pregnant. (Doc. 10-4 at ¶ 5).
Carcamo, on behalf of Defendant, acknowledged that
Plaintiff had been given light duty on weekends for a short
period of time. (Doc. 12-2 at pp. 15-16). There remains a
genuine dispute of material fact as to whether reasonable
accommodations could have been made for Plaintiff under
the LEDL. Thus, Defendant has not met its burden and
summary judgment on this claim is denied.
3.

Jurisdiction Over LEDL Claim

In accordance with the rulings above, the LEDL claim
under La. R.S. 23:342(4) is the lone remaining claim in this
matter. In the absence of a surviving federal claim, and in
the interest of fairness to all parties involved and judicial
economy, the Court declines to exercise jurisdiction over
Plaintiff’s remaining state law claim and remands this
matter to the Nineteenth Judicial District Court, Parish
of East Baton Rouge, State of Louisiana. See Enochs v.
Lampasas Cty., 641 F.3d 155, 161 (5th Cir. 2011); Beiser v.
Weyler, 284 F.3d 665, 675 (5th Cir. 2002) (noting that where

32a
Appendix C
“no other grounds for federal jurisdiction exist, the court
must ordinarily remand the case back to state court”);
Batiste v. Island Records, Inc., 179 F.3d 217, 227 (5th Cir.
1999) (citation omitted) (the “general rule” in the Fifth
Circuit “is to decline to exercise jurisdiction over pendent
state law claims when all federal claims are dismissed or
otherwise eliminated from a case prior to trial.”).
Accordingly, Defendant’s motion for Summary
Judgment is GRANTED with respect Plaintiff’s claim
under La. R.S. 23:342(2)(b) and DENIED with respect
to Plaintiff’s claim under La. R.S. 23:342(4). Plaintiff’s
claim under La. R.S. 23:342(4) is REMANDED to the
state court from which it was removed.
d.

Attorney’s Fees

Defendant seeks an order assessing damages against
Plaintiff under the LEDL, which provides: “a plaintiff
found by a court to have brought a frivolous claim under
this Chapter shall be held liable to the defendant for
reasonable damages incurred as a result of the claim,
reasonable attorney fees, and court costs.” La. R.S.
23:303(B). These penalties may only be assessed with
respect to the claims filed by Plaintiff under the LEDL.
To analyze the appropriateness of an award of attorney’s
fees to the Defendant under La. R.S. 23:303(B), the Court
applies the standard used for an analogous provision in
Title VII, which was articulated by the U.S. Supreme
Court in Christiansburg Garment Co. v. EEOC, 434 U.S.
412, 421, 98 S. Ct. 694, 54 L. Ed. 2d 648 (1978). See WilsonRobinson v. Our Lady of the Lake Reg’l Med. Ctr., Inc.,

33a
Appendix C
CIV.A. 10-584, 2013 U.S. Dist. LEXIS 136178, 2013 WL
5372346, at *1 (m.D. La. Sept. 24, 2013). In Christianburg,
the U.S. Supreme Court held that a district court may
exercise its discretion to assess against a plaintiff her
opponent’s attorney’s fees if a plaintiff’s claim was
“frivolous, unreasonable, or groundless, or that the
plaintiff continued to litigate after it clearly became so,”
even if the court did not find the claim made in subjective
bad faith. 434 U.S. at 422.
Plaintiff filed two claims under the LEDL, one based on
a denial of full LEDL leave under La. R.S. 23:342(2)(b) and
the other based on a denial of reasonable accommodation
under La. R.S 23:342(4). As the Court found above, the
latter claim is meritorious enough to withstand summary
judgment, and the Court does not find it to be groundless
as to warrant an award of attorney’s fees.
As to the former claim, which has been dismissed
upon summary judgment, it is important that the Court
“resist the understandable temptation to engage in post
hoc reasoning by concluding that, because a plaintiff
did not ultimately prevail, [her] action must have been
unreasonable or without foundation.” Christiansburg, 434
U.S. at 421-22. Although the Court does not ultimately
find a genuine dispute of material fact regarding the
merits of Plaintiff’s claim that she was denied the full
amount of leave she was due under LEDL, neither does
the Court find her arguments unreasonable in light
of the record evidence demonstrating that Defendant
misrepresented, albeit inadvertently, to Plaintiff that she
was entitled to FmLA leave. Defendant is a sophisticated

34a
Appendix C
party who asserts that it has granted pregnancy leave to
numerous employees in the past. (Doc. 10-4 at p. 7). By
communicating blatantly incorrect information to Plaintiff
about the nature of her leave, Defendant itself was the
source of many of these disputed legal claims before
the Court today. Thus the Court exercises its discretion
and declines to award attorney’s fees under the LEDL.
Accordingly, Defendant’s motion to assess attorney’s fees
against the Plaintiff is DENIED.
IV.	Conclusion
Accordingly,
IT IS ORDERED that Defendant’s Motion for
Summary Judgment (Doc. 10) is GRANTED IN PART
and DENIED IN PART, consistent with this Order.
IT IS FURTHER ORDERED that Plaintiff’s claims
under Title VII, the FmLA, and La. R.S. 23:342(2)(b) are
DISMISSED WITH PREJUDICE.
IT IS FURTHER ORDERED that Plaintiffs La. R.S.
23:342(4) claim is DISMISSED WITHOUT PREJUDICE
and that this matter is REMANDED for consideration
by the Nineteenth Judicial District Court, Parish of East
Baton Rouge, State of Louisiana.
IT IS FURTHER ORDERED that Defendant’s
motion that this Court assess damages and fees against
Plaintiff pursuant to La. R.S. 23:303(B) is DENIED.

35a
Appendix C
Baton Rouge, Louisiana, this 4th day of
November, 2014.
/s/ Brian A. Jackson				
BRIAN A. JACKSON, CHIEF JUDGE
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA

36a
AppendixOF
D REHEARING OF
APPENDIx D — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT, DATED JANUARY 14, 2016
IN THE UNITEd STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 16-30992
ERYON LUKE,
Plaintiff-Appellant,
v.
CPLACE FOREST PARK SNF, L.L.C.,
dOINg BUSINESS AS NOTTINgHAm
REgIONAL REHAB CENTER,
Defendant-Appellee.
Appeal from the United States district Court
for the middle district of Louisiana
ON PETITION FOR REHEARING EN BANC
(Opinion - 1/14/19, 5 Cir., ________,________ F.3d ________)
Before dAVIS, gRAVES, and COSTA, Circuit Judges.
PER CURIAm:

37a
Appendix D
() Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is dENIEd. No member of the panel nor
judge in regular active service of the court having
requested that the court be polled on Rehearing En
Banc (Fed. r. a PP. P. and 5TH cIr. R. 35), the Petition
for Rehearing En Banc is dENIEd.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is dENIEd. The court having been polled
at the request of one of the members of the court and
a majority of the judges who are in regular active
service and not disqualified not having voted in favor
(Fed. r. a PP. P. and 5TH cIr. R. 35), the Petition for
Rehearing En Banc is dENIEd.
ENTEREd FOR THE COURT
/s/						
UNITEd STATES CIRCUIT JUdgE

